CERTIFICATE OF WORD COUNT
No. TBD
Shreveport Chapter #237 of the United Daughters of the Confederacy,
Petitioner(s),
v.
Caddo Parish Commission, et al.,
Respondent(s).

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
That, as required by Supreme Court Rule 33.1(h), I certify that the SHREVEPORT CHAPTER
#237 OF THE UNITED DAUGHTERS OF THE CONFEDERACY PETITION FOR WRIT OF CERTIORARI contains
8864 words, including the parts of the brief that are required or exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas OeDeus
July 12, 2019

SCP Tracking: Knadler-3223 First Street-Cover White

